No.

IN THE
SUPREME COURT OF THE UNITED STATES
CALVIN TEKO COSTON,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

The petitioner has previously been granted leave to proceed in forma pauperis
in the following courts:

U.S. District Court for the Eastern District of Virginia, Case
No. 2:05CR84, by oral order entered July 6, 2005; and

U.S. Court of Appeals for the Fourth Circuit, Case No. 19-4242, by
written order dated April 11, 2019.

Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached. See
S. Ct. R. 39.1.
November 27, 2020

to

Respectfully submitted,

tH By

Patrick L. Bryant

Appellate Attorney

Counsel of Record

Wilfredo Bonilla, Jr.

Assistant Federal Public Defender
Office of the Federal Public Defender
1650 King Street, Suite 500
Alexandria, VA 22314

(703) 600-0800
Patrick_Bryant@fd.org
